NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




             REVIEW OF THE IMPLEMENTATION
               OF HOMELAND SECURITY
              PRESIDENTIAL DIRECTIVE 12
                  Report #OIG-08-06        June 4, 2008




                         William A. DeSarno
                         Inspector General



       Released by:                            Auditor-in-Charge:




     James Hagen                               W. Marvin Stith, CISA
  Deputy IG for Audits                Senior Information Technology Auditor
                       TABLE OF CONTENTS




Section                                                                           Page

          EXECUTIVE SUMMARY                                                          1

          BACKGROUND                                                                 2

          OBJECTIVE                                                                  2

          SCOPE & METHODOLOGY                                                        3

          RESULTS                                                                    4

  A       NCUA did not meet OMB milestones for issuing credentials                   4

  B       The PIV credentials NCUA planned to issue do not meet HSPD-12              5
          requirements

  C       NCUA does not have an HSPD-12 Implementation Plan                          7

  D       NCUA does not have accredited and approved procedures for                  8
          verifying the identities of its employees and contractor employees or
          for issuing and managing PIV credentials

  E       NCUA contracts do not require contractor employee compliance               9
          with HSPD-12

Appendix NCUA Management Comments                                                   11
                                               EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
performed an audit to determine the status of NCUA‘s implementation of Homeland
Security Presidential Directive – 12 (HSPD-12) - Policy for a Common Identification
Standard for Federal Employees and Contractors. To determine NCUA’s status in
implementing HSPD-12, we interviewed management and staff from the NCUA Office of
the Chief Information Officer (OCIO), Office of Human Resources (OHR), Office of
General Counsel (OGC), and the Office of the Chief Financial Officer (OCFO) Division
of Procurement and Facilities Management (DPFM). We also interviewed a
representative from the General Services Administration (GSA). In addition, we
reviewed HSPD-12 policies and requirements, as well as NCUA documentation,
procedures and policies regarding HSPD-12 implementation.

We determined NCUA has made progress towards issuing Personal Identity Verification
(PIV) credentials to its employees and contractor employees. NCUA has verified, initiated,
or completed background investigations on its employees. In addition, NCUA has begun
initiating background investigations on its contractor employees. Furthermore, NCUA
proofed and registered1 its existing employees and contractor employees starting in August
2006. However, NCUA has not issued credentials to new or existing employees and
contractor employees as required, and the credentials NCUA plans to issue do not meet
HSDP-12 and Federal Information Processing Standard 201 (FIPS 201) requirements. In
addition, NCUA has not fulfilled other HSPD-12 requirements. Specifically, NCUA:

       •    Does not have an implementation plan;

       •    Does not have an accredited and approved identity proofing and registration process;

       •    Does not have an accredited and approved PIV issuance and management process;
            and

       •    Has not included language in contracts requiring compliance with HSPD-12 and
            FIPS 201

We made eight recommendations where improvements could be made. Management
agreed with seven of the recommendations and is taking corrective action or has plans to
address the recommendations. Management disagreed with the recommendation to place
a federal cross-certified certificate on the credentials and made a business decision to only
place the certificate on senior NCUA staff credentials. Management believes that given
limited interoperability with other federal agencies and the significant cost per certificate
involved, the expenditure of NCUA funds for the cross-certified certificate is not justified for
all employees at this time. A complete copy of management’s formal written response is
attached as an appendix to this report.


1
    Identity proofing and registration are the activities involved in verifying identities and recording that information.

                                                                    1
BACKGROUND:

On August 27, 2004, the President signed HSPD-12, which provides policy
guidelines to enhance security, increase Government efficiency, reduce identity
fraud, and protect personal privacy by establishing a mandatory,
Government-wide standard for secure and reliable forms of identification issued
by the federal government to its employees and contractors (including contractor
employees). "Secure and reliable forms of identification" for purposes of this
directive means identification that (a) is issued based on sound criteria for
verifying an individual employee's identity; (b) is strongly resistant to identity
fraud, tampering, counterfeiting, and terrorist exploitation; (c) can be rapidly
authenticated electronically; and (d) is issued only by providers whose reliability
has been established by an official accreditation process.

On February 25, 2005, the Secretary of Commerce approved and issued Federal
Information Processing Standard 201, Personal Identity Verification of Federal
Employees and Contractors (FIPS 201). The National Institute of Standards and
Technology (NIST) developed this standard to satisfy the requirements of
HSPD-12. The Office of Management and Budget (OMB) is responsible for
ensuring compliance with HSPD-12. On August 5, 2005, OMB issued a
memorandum (M-05-24) that provided instructions to agencies for implementing
HSPD-12 and FIPS 201. According to M-05-24, HSPD-12 requires agencies to
conduct a background investigation, adjudicate the results, and issue identity
credentials to their employees and contractors who require long-term access to
federally controlled facilities or information systems. However, it does not apply
to individuals under contract to a department or agency, who require only
intermittent access to federally controlled facilities.

FIPS 201 is composed of two parts: PIV-I and PIV-II. PIV-I describes the
minimum requirements for a federal personal identification system that meets the
control and security objectives of HSPD-12, including personal identity proofing,
registration, and issuance. PIV-II provides detailed technical specifications to
support the control and security objectives in PIV-I as well as interoperability
among federal departments and agencies. PIV-II describes the policies and
minimum requirements of a PIV Card that allows interoperability of credentials for
physical access and logical access.

OBJECTIVE:

The objective of this review was to assess the status of NCUA’s implementation
of HSPD-12.




                                         2
SCOPE & METHODOLOGY:

To determine the status of NCUA’s implementation of HSPD-12, we interviewed
management or staff from the NCUA OCIO, OHR, OGC, and OCFO DPFM. We
also interviewed a representative from the GSA. In addition, we reviewed
HSPD-12 policies and requirements, and NCUA documentation, procedures and
policies regarding HSPD-12 implementation.

We conducted our fieldwork from February 2008 through May 2008 and
performed this review in accordance with Generally Accepted Government Auditing
Standards.




                                       3
RESULTS:

A. NCUA did not meet OMB milestones for issuing credentials

NCUA has made progress towards issuing PIV credentials to its employees and
contractor employees. OHR verified, initiated, or completed employee background
checks and has begun pursuing contractor background investigations. OHR also
proofed and registered existing NCUA employees and contractor employees starting
in August 2006. However, NCUA has not issued credentials to new or existing
employees and contractor employees as required. OMB required agencies to:

    •    Begin issuing credentials to new employees and contractor employees by
         October 27, 2006; and

    •    Issue and use credentials for current employees and contractor employees by
         October 27, 2007

In addition, FIPS 201 required that the identity credentials agencies issue to
individuals without a completed background investigation must be electronically
distinguishable from identity credentials issued to individuals who have a completed
investigation.

NCUA reported to OMB that as of September 2007, it had 942 employees that
required PIV credentials. NCUA also reported that all its employees had completed
or adjudicated background investigations.2 However, NCUA had issued only one
credential. NCUA reported to OMB that it had issued only 10 credentials as of
December 2007. In addition, as of May 6, 2008, OHR indicated it had 40 contractor
employees on staff requiring background investigations and had initiated the
paperwork for 23 of these contractor employees.3 NCUA indicated that technology
issues impacted its ability to produce PIV credentials.

While NCUA did not meet required OMB milestones for issuing its credentials, OMB
indicated, on October 26, 2007, that no federal agency would meet the
October 27, 2007 deadline. OMB reported that as of March 1, 2008, federal
agencies had issued credentials to approximately three percent of employees and
three percent of contractor employees. OMB indicated that unexpected technical
difficulties caused agencies to miss the goal.




2
  NCUA indicated to the OIG in April 2008 that it had one employee who entered on duty in March 2004 who did not
have an initial background investigation. In addition, NCUA identified six employees who entered on duty between
April and September 2007 for whom NCUA submitted their investigation paperwork to OPM prior to their entry on
duty.
3
  For the purposes of this audit, we are defining “initiated” as the employee at least completed the paperwork and
provided it to OHR.

                                                        4
Considering the status of the majority of the federal community in issuing credentials,
we did not consider that NCUA’s status would have any adverse impact regarding
the HSPD-12 goal for interoperability among federal departments and agencies.
Therefore, we are not making a recommendation regarding this issue at this time


B. The PIV credentials NCUA plans to issue do not meet HSPD-12
   requirements

NCUA has made progress towards issuing credentials, and NCUA indicated to OMB
in January 2008 that it would create credentials for all employees by March 31, 2008.
However, the NCUA credential as configured does not incorporate the certificate
required by FIPS 201. In addition, GSA had not validated the NCUA credential as
configured.

OMB allows agencies to place additional certificates on its credentials. However, it
mandates that a digital certificate be incorporated on the credential for access control
that originates from:

     •    An agency certification authority 4 cross-certified with the Federal Bridge
          Certificate Authority (FBCA 5 ) at medium assurance or higher; or

     •    An approved Shared Service Provider.

OCIO configured the NCUA credential with a Microsoft6 certificate that will allow
NCUA users to access the NCUA VPN, but which is not cross-certified with the
FBCA. OCIO indicated it did not put the federal certificate on its credentials because:
(a) of the cost of procuring and maintaining a cross-certified certificate, and (b) the
functionality for using the federal certificate is not yet available and therefore is not an
issue. OCIO indicated it could add the certificate when the functionality for the
certificate is available. However, OCIO recently decided to configure credentials for
all NCUA Board members and executive staff with the federal certificate before the
agency issues the credentials.

In addition, GSA did not validate the credential NCUA planned to issue with the
Microsoft certificate. OMB required agencies to provide credentials with their
agency’s standard configuration to GSA for testing. GSA validated an NCUA
credential in September 2007. However, the credential contained a certificate other
than the Microsoft certificate NCUA plans to use. The GSA representative
responsible for the testing indicated that when an agency changes certificates after
GSA validated the credential, the agency should submit the updated credential for

4
  A certification authority is a trusted third party that issues digital certificates and validates the identity of the holder
of a digital certificate.
5
  The FBCA allows an entity to accept digital identity certificates issued by other entities for transactions. It allows
for trust between different agencies regardless of which entities are involved in the sharing of information.
6
  Microsoft is not an approved Shared Service Provider.

                                                              5
revalidation. We discussed this issue with OCIO, and OCIO indicated it would
provide another credential to GSA.

Issuing a credential that meets federal requirements will ensure NCUA’s ability to
fulfill the HSPD-12 goals for a secure and reliable form of identification that is strongly
resistant to identity fraud, tampering, counterfeiting, and terrorist exploitation and that
can be rapidly authenticated electronically. In addition, it would ensure NCUA
credentials meet the HSPD-12 goal for interoperability of credentials for physical and
logical access control. Furthermore, we believe that creating and issuing credentials
before NCUA incorporates the federal certificate could lead to logistical challenges
for NCUA because the majority of NCUA employees are located in four Regional
offices and the Asset Management Assistance Center (AMAC), which are
geographically dispersed from the Central Office where NCUA issues and maintains
the credentials. 7

Recommendation #1: Prior to issuing its credentials, NCUA should incorporate a
federal certificate on its credentials that is cross-certified with the Federal Bridge
Certificate Authority.

Management Response: Management disagreed with our recommendation.
Management believes that given limited interoperability with other federal agencies
and the significant cost per certificate involved, the expenditure of NCUA funds for
the cross-certified certificate is not justified for all employees at this time. However,
management also indicated it would load a limited number of cross-certified
certificates on the PIV credentials of senior NCUA staff.

OIG Response: We understand that NCUA is making a business decision to not
configure all its credentials with the cross-certified federal certificate at this time
based on the cost-benefit. We do not plan to pursue this matter in resolution.

Recommendation #2: Prior to issuing its credentials, NCUA should submit a
credential with the required certificate configuration to GSA for testing.

Management Response: Management agreed with our recommendation and
indicated it is in the process of submitting the updated credential configuration to
GSA prior to issuing the PIV cards.

OIG Response: We agree with the proposed action.

Recommendation #3: NCUA should issue its credentials as soon as practicable
after fulfilling the two recommendations above.



7
 The four Regional offices are located in New York, Georgia, Arizona, and Texas, and AMAC is also located in
Texas.

                                                       6
Management Response: Management agreed with our recommendation.
Management indicated it would issue credentials to all central and regional office staff
after GSA tests the credential configuration. Specifically, management indicated it
would issue credentials to field staff at the upcoming NCUA regional conference in
September.

OIG Response: We agree with the proposed action.


C. NCUA does not have an HSPD-12 Implementation Plan

At OMB’s request, NCUA provided its initial implementation status to OMB in
June 2005 and an updated status in September 2006. However, NCUA does not
have an implementation plan. In May 2005 when OMB requested agencies provide
their implementation status by June 27, 2005, it informed agencies they needed to
prepare a detailed implementation plan. In addition, when OMB published its overall
HSPD-12 implementation guidance in August 2005, it listed the implementation plan
as a requirement that agencies were supposed to provide to OMB by June 27, 2005.
NCUA does not have an implementation plan because there is no single NCUA
office responsible for directing and coordinating the various functional components
involved in implementing the HSPD-12 program for the agency.

Several NCUA offices have responsibilities for implementing HSPD-12 such as
OCIO, OHR, and OCFO. However, no single office has accepted the overall
responsibility for directing and coordinating the implementation of HSPD-12 for the
agency as a whole.

While OCIO and OCFO DPFM have considered and made efforts towards physical
and logical access solutions, the agency may have been able to pursue or implement
more timely access solutions if it had prepared an implementation plan. For
example, OCIO could have established a budget and timeline to procure a certificate
that is cross-certified with the FBCA for logical access control to federally controlled
information systems. In addition, OCFO DPFM could have detailed a solution,
timeline and budget for physical access to NCUA facilities in an implementation plan.

Regarding NCUA’s physical access solution, OCFO DPFM began pursuing a card
reader in 2007 for building access under HSPD-12 to replace NCUA’s existing HID8
devices that would be able to read both its legacy building access cards and the new
PIV credentials. Recently, OCIO learned that PIV cards which function with NCUA’s
existing HID card readers were on the GSA approved products list.9 These cards
could potentially provide NCUA with a physical access solution under HSPD-12
without having to replace the existing readers. OCIO had planned to obtain and test

8
  HID is a manufacturer of secure identity solutions and contactless smart card technology for physical access
control.
9
  These cards have been on the GSA Approved Products List since September 2006.

                                                         7
some of these PIV cards as a potential solution. However, OCIO indicated they
assessed the cards as a potential solution and determined they were too costly.

In addition, an implementation plan could have outlined NCUA’s timeline to fulfill
other HSPD-12 requirements it has not met, such as:

     •   Accrediting and approving an identity proofing and registration process (See
         Finding D below);

     •   Accrediting and approving a PIV issuance and management process (See
         Finding D below); and

     •   Incorporating language into contracts requiring contractor compliance with
         HSPD-12 and FIPS 201(See Finding E below)

Recommendation #4: NCUA’s Executive Director should designate a single office
with overall responsibility for directing and coordinating HSPD-12 implementation for
NCUA.

Management Response: Management agreed with our recommendation and
designated the NCUA Office of Human Resources (OHR) as the office responsible
for HSPD-12 implementation.

OIG Response: We agree with the proposed action.

Recommendation #5: NCUA should develop a detailed HSPD-12 implementation
plan.

Management Response: Management agreed with our recommendation and
indicated it has been in the process of developing an implementation plan.

OIG Response: We agree with the proposed action.


D. NCUA does not have accredited and approved procedures for verifying the
   identities of its employees and contractor employees or for issuing and
   managing PIV credentials

OHR established and implemented an identity proofing and registration process for
employees and contractor employees that meets key FIPS 201 requirements.10 In
October 2005, OHR published training and guidance on the roles, requirements and
procedures for proofing and registration and made the training and requirements
available on its intranet. In addition, OHR proofed and registered its existing

10
  NCUA’s identity proofing and registration process provides for separation of duties, and the process requires
applicants to provide two acceptable forms of identity source documents.

                                                         8
employees and contractor employees starting in August 2006. In addition, OHR
prepared a “PIV Issuance and Maintenance” process for issuing and managing PIV
credentials. However, NCUA has not approved or accredited these processes.

OMB required agencies to adopt and accredit11 an approved12 identity proofing and
registration process by October 27, 2005. In addition, FIPS 201 requires agencies to
accredit and approve their PIV issuance and management procedures. Furthermore,
OMB indicated agencies cannot issue new identity credentials until they have
approved and accredited procedures.

By accrediting and approving its proofing and registration and its PIV issuance and
management procedures, NCUA would facilitate its ongoing ability to meet the
HSPD-12 control objective to ensure agencies issue credentials based on sound
criteria for verifying an individual employee's identity.

Recommendation #6: NCUA should accredit and approve its identity proofing and
registration procedures prior to issuing credentials.

Management Response: Management agreed with our recommendation and
indicated OHR is in the process of submitting the written procedures for accreditation
and approval prior to issuing the credentials.

OIG Response: We agree with the proposed action.

Recommendation #7: NCUA should accredit and approve its PIV credential
issuance and management procedures prior to issuing credentials.

Management Response: Management agreed with our recommendation and
indicated it would comply with NIST requirements when it issues its credentials.

OIG Response: We agree with the proposed action.


E. NCUA contracts do not require contractor employee compliance with
   HSPD-12

NCUA employs contractor employees at its Central Office and its Asset Management
and Assistance Center (AMAC). OHR began proofing and registering contractor
employees starting in August 2006 and has also begun pursuing background checks
on contractor employees. However, NCUA contracts do not include language
requiring compliance with HSDP-12 and FIPS-201. OCFO DPFM and AMAC staff
responsible for this requirement indicated they were not aware of the requirement.


11
     Agencies must accredit that these processes satisfy FIPS 201 requirements.
12
     The head of the agency must approve the procedures in writing.

                                                         9
OMB required that by October 27, 2005, all new contracts (including exercised
options) that require contractors to have long term access to federally controlled
facilities or access to federally controlled information systems shall include language
requiring compliance with PIV procedures. The Federal Acquisition Regulation
includes a clause NCUA could use in its contracts that requires contractors to comply
with HSPD-12 and FIPS 201.

By ensuring contractors are required to comply with PIV procedures, NCUA can
ensure its contractor employees meet HSPD-12 requirements and continue to
provide optimum services to NCUA employees and oversight of the nation’s credit
unions.

Recommendation #8: NCUA should update its contracts to include language
requiring contractor employees to comply with HSPD-12 and FIPS 201.

Management Response: Management agreed with our recommendation and
indicated it has taken action to update purchase orders and notify contractors of the
requirement to comply.

OIG Response: We agree with the proposed action.




                                          10
                           APPENDIX
NCUA MANAGEMENT COMMENTS




           11
                           APPENDIX
NCUA MANAGEMENT COMMENTS




           12
                           APPENDIX
NCUA MANAGEMENT COMMENTS




           13
